<html>
<title> - [H.A.S.C. No. 111-102] COUNTERTERRORISM WITHIN THE AFGHANISTAN COUNTERINSURGENCY </title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
                         [H.A.S.C. No. 111-102] 

                      COUNTERTERRORISM WITHIN THE 

                     AFGHANISTAN COUNTERINSURGENCY 

                               __________

                                HEARING

                               BEFORE THE

    TERRORISM, UNCONVENTIONAL THREATS AND CAPABILITIES SUBCOMMITTEE

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                            OCTOBER 22, 2009

                                     
                  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

57-054 PDF                       WASHINGTON : 2010 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 






















    TERRORISM, UNCONVENTIONAL THREATS AND CAPABILITIES SUBCOMMITTEE

                    ADAM SMITH, Washington, Chairman
MIKE McINTYRE, North Carolina        JEFF MILLER, Florida
ROBERT ANDREWS, New Jersey           FRANK A. LoBIONDO, New Jersey
JAMES R. LANGEVIN, Rhode Island      JOHN KLINE, Minnesota
JIM COOPER, Tennessee                BILL SHUSTER, Pennsylvania
JIM MARSHALL, Georgia                K. MICHAEL CONAWAY, Texas
BRAD ELLSWORTH, Indiana              THOMAS J. ROONEY, Florida
PATRICK J. MURPHY, Pennsylvania      MAC THORNBERRY, Texas
BOBBY BRIGHT, Alabama
SCOTT MURPHY, New York
                 Tim McClees, Professional Staff Member
               Alex Kugajevsky, Professional Staff Member
                     Andrew Tabler, Staff Assistant


















                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2009

                                                                   Page

Hearing:

Thursday, October 22, 2009, Counterterrorism within the 
  Afghanistan Counterinsurgency..................................     1

Appendix:

Thursday, October 22, 2009.......................................    27
                              ----------                              

                       THURSDAY, OCTOBER 22, 2009
       COUNTERTERRORISM WITHIN THE AFGHANISTAN COUNTERINSURGENCY
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Miller, Hon. Jeff, a Representative from Florida, Ranking Member, 
  Terrorism, Unconventional Threats and Capabilities Subcommittee     2
Smith, Hon. Adam, a Representative from Washington, Chairman, 
  Terrorism, Unconventional Threats and Capabilities Subcommittee     1

                               WITNESSES

Kagan, Dr. Frederick W., Resident Scholar, The American 
  Enterprise Institute...........................................     3
Nelson, Rick ``Ozzie,'' Senior Fellow, International Security 
  Program, Center for Strategic and International Studies........     9
Pape, Dr. Robert A., Professor of Political Science, University 
  of Chicago.....................................................     7
.................................................................

                                APPENDIX

Prepared Statements:

    Kagan, Dr. Frederick W.......................................    34
    Miller, Hon. Jeff............................................    32
    Nelson, Rick ``Ozzie''.......................................    47
    Pape, Dr. Robert A...........................................    38
    Smith, Hon. Adam.............................................    31

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    [There were no Questions submitted post hearing.]
       COUNTERTERRORISM WITHIN THE AFGHANISTAN COUNTERINSURGENCY

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
        Terrorism, Unconventional Threats and Capabilities 
                                              Subcommittee,
                        Washington, DC, Thursday, October 22, 2009.
    The subcommittee met, pursuant to call, at 10:34 a.m., in 
room HVC 210, Capitol Visitor Center, Hon. Adam Smith (chairman 
of the subcommittee) presiding.

  OPENING STATEMENT OF HON. ADAM SMITH, A REPRESENTATIVE FROM 
  WASHINGTON, CHAIRMAN, TERRORISM, UNCONVENTIONAL THREATS AND 
                   CAPABILITIES SUBCOMMITTEE

    Mr. Smith. I call the meeting to order. I apologize for 
being late. I was still operating off the assumption that the 
meetings were over in the Rayburn room, and it is a much longer 
haul getting over here than it is to Rayburn.
    But I apologize for that, and I really appreciate our 
witnesses joining us this morning, as well as the panel, to 
have this conversation. I have read all three of your works on 
many subjects. Very, very knowledgeable people on a very 
important subject for all of us right now: the path forward in 
Afghanistan, and also in Pakistan and that whole region.
    This committee has a particular interest in the Special 
Operations Command (SOCOM) and its role in counterterrorism. 
But, of course, we are also members of the full Armed Services 
Committee and interested in the broader picture as well.
    Although we certainly look forward to hearing your 
testimony on all those subjects, on the best path forward, the 
dominant two issues for me are, number one, this is a 
critically important part of the region. We have heard some 
people talk about Afghanistan and say, well, if our concern is 
al Qa'ida, well, they have moved to Pakistan. Or, al Qa'ida is 
in 45 or 50 different countries; what makes this one special?
    Well, in my view, this one is extraordinarily special. The 
relationship between the Taliban and al Qa'ida is unique. This 
is the place where al Qa'ida is strongest and most likely to 
launch attacks. And it is pretty much the one place on the 
globe that we cannot afford to turn a blind eye to, if we are 
truly concerned about dealing with al Qa'ida.
    I know a number of you have greater knowledge about that 
relationship than I. I look forward to hearing about that. But 
just to drive home the point that we cannot comfort ourselves 
by saying that, well, you know, they are in a lot of different 
places, they are more or less in Pakistan, do we really have to 
worry about it? In my view, yes, we do. But I look forward to 
having that discussion.
    The second difficult part about it is having to worry 
about, it puts us in a very, very difficult place. And the 
central focus of that challenge, I think, is finding a reliable 
partner in Afghanistan, finding a government, a tribal 
structure, a provincial structure, somebody, some group of 
people who we can work with to offer the Afghan people a viable 
alternative to the Taliban.
    We are in reasonably good shape in that the Afghan people 
know the Taliban and they do not like them. However, they like 
some form of government; they like some rule of law, some 
structure to their society. And if nobody else can offer that, 
the Taliban will fill that void.
    So we are really struggling right now to find that Afghan 
partner. You are all familiar with the problems of corruption 
and ineffectiveness within the government; and now we have the 
challenge of an illegitimate election. I am very, very pleased 
that they made the decision to do the runoff, to at least give 
them a chance to have a more legitimate election.
    But the challenges there are great in trying to find a 
reliable partner, so I look forward to the testimony. I will 
briefly introduce the witnesses now before turning it over to 
the ranking member on the committee, Mr. Miller, and then 
introduce you again when you each speak.
    We are joined by Dr. Frederick Kagan, Resident Scholar at 
The American Enterprise Institute; Dr. Robert Pape, Professor 
of Political Science at the University of Chicago; and Rick 
``Ozzie'' Nelson, Senior Fellow, International Security Program 
for the Center for Strategic and International Studies. I look 
forward to all of your testimony.
    I do have a full written statement which, without 
objection, I will submit for the record. And with that, we will 
turn it over to any comments that Mr. Miller has.
    [The prepared statement of Mr. Smith can be found in the 
Appendix on page 31.]

 STATEMENT OF HON. JEFF MILLER, A REPRESENTATIVE FROM FLORIDA, 
     RANKING MEMBER, TERRORISM, UNCONVENTIONAL THREATS AND 
                   CAPABILITIES SUBCOMMITTEE

    Mr. Miller. Thank you very much, Mr. Chairman.
    Thank you to the witnesses for being here today.
    Also, Mr. Chairman, I would be remiss if I did not, on 
behalf of the subcommittee, say we are glad to have you back 
functioning on both lungs today.
    Mr. Smith. Right. It is good to have it. Unfortunately, 
unlike kidneys, apparently you need both lungs. Just in case 
anybody was wondering.
    Mr. Miller. Having recently returned from a trip to 
Afghanistan over the Columbus Day weekend, I can say that this 
hearing does come at a pivotal moment. We know that two months 
ago General McChrystal provided the President with his 
assessment of the situation in Afghanistan, and as we have all 
read in the press, he has deemed the situation serious. While 
General McChrystal acknowledges the very difficult task he 
faces in bringing security to Afghanistan and its people, he 
does not view the situation, however, as a lost cause.
    I do have a statement that I want to go ahead and enter 
into the record. So I ask unanimous consent to revise and 
extend.
    Mr. Smith. Without objection. Thank you very much.
    [The prepared statement of Mr. Miller can be found in the 
Appendix on page 32.]
    Mr. Smith. With that, I guess we will go left to right, as 
I look at it, ironically. And we will start with Dr. Kagan. And 
there are statements in our books for the members if they wish 
to look through them as we go, as well.

  STATEMENT OF DR. FREDERICK W. KAGAN, RESIDENT SCHOLAR, THE 
                 AMERICAN ENTERPRISE INSTITUTE

    Dr. Kagan. Thank you.
    And also thanks for introducing me as the left side of this 
debate. Since I guess I am vigorously supporting the 
President's stated strategy, I suppose I am on the left side of 
this particular debate.
    Thank you very much for having me in front of this 
committee. It is an honor, as always, and I am very grateful 
for the attention that you are paying to this very important 
topic. I am very pleased that we are having this level of 
national debate now, because I do think that whatever we do in 
Afghanistan, it is going to be a long process, it is going to 
be a difficult process; and it is very important that the 
American people understand very, very clearly why we think we 
need to do what we are doing, and what we think we are doing, 
why we think it is going to work. And I think this entire 
discussion and exploration of alternatives helps that.
    I am not going to read my--I didn't give you a written 
statement. Actually, I gave you a bunch of various things to 
look at. I have a 60-some-odd slide show which I am going to 
run through--no. Actually, I am just going to make a few 
points, and I just look forward to engaging with you in 
questions which I think is probably the most useful thing to 
do.
    Look, when we are talking about counterterrorism in this 
part of the world or anywhere, we really have to ask ourselves 
the question, What are we trying to do? Are we trying to 
prevent attacks against the United States? Is this a defensive 
mission, exclusively? And if so, are we prepared to be in a 
defensive posture with occasional reactive sorties against 
these groups, or are we trying to defeat these groups? If we 
are trying to defeat these groups, what does that actually 
mean?
    We are certainly not going to defeat their ideology in any 
short term. And it is an ideology within Islam. It is a 
heretical ideology within Islam that has roots in the years 
immediately following the death of the Prophet Muhammad. It 
goes back a long way. It will always be there in some form to 
be used by someone.
    And, of course, if you look at the history of the Cold War, 
did we defeat the Communist ideology? Well, we tarnished it 
very badly by defeating its reification in the world. And that 
is something that is important to keep in mind: al Qa'ida has 
embodied this particular vision of this heretical ideology, and 
its success or failure is tied to a considerable extent to the 
value that other extremists are likely to put on this 
particular ideology.
    And so I think that we do need to understand that there is 
a broader issue here than simply preventing this particular 
bunch of thugs from attacking us. There is also the question of 
trying to make it clear that this ideology is a loser, and it 
leads to defeat and it leads to calamity for the people who 
pursue it. And it does not lead to success or anything positive 
because we want to deter future generations of extremists from 
using this particularly noxious ideology to justify what they 
are doing.
    And in that context, it is very important to understand 
that al Qa'ida does not define itself as a terrorist group. Al 
Qa'ida defines itself as an insurgent group. It is an 
insurgency within the Muslim world. Its objective is to seize 
power within the Muslim world and then transform the Muslim 
world in accord with its ideology.
    And the reason why that is very important to understand is, 
first of all, it explains why wherever al Qa'ida goes, wherever 
an al Qa'ida franchise goes, it plants a flag, it establishes 
the Islamic Emirate of Wherever-the-Heck and it declares itself 
the only legitimate sovereign government of the four kilometers 
of land that it probably controls.
    At any given moment there were probably five different 
capitals of the Islamic Emirate of Iraq--some of them tiny 
little villages out in the middle of nowhere, but it was, by 
God, the capital of the Islamic Emirate of Iraq.
    And they set up--they tend to set up rather elaborate 
government structures even if they are, in some cases, 
fictitious. So in Iraq I was delighted to discover that al 
Qa'ida and Iraq had an Emir of Administration. I think if only 
we could get them to do their planning on PowerPoint, we would 
be a long way towards success in this effort.
    But that kind of bureaucratization is not the sort of thing 
that you saw from terrorist groups that really see themselves 
as terrorist groups, such as the Irish Republican Army (IRA) 
fighting the British, such as Euskadi Ta Askatasuna (ETA) 
fighting the Spanish. They define themselves politically sort 
of as insurgencies, but they don't have the same elaborated 
political superstructure that they intend to impose.
    And the reason why that matters is because terrain actually 
matters to these guys. Where they plant the flag, they intend 
to stay. And if you take it away from them, it is a blow to 
them. And all of their rhetoric during and after the Iraq surge 
demonstrated that they saw that as a defeat. They did not just 
see it as, Oh, well, that didn't work out; we will go somewhere 
else. They saw that as a defeat.
    They saw what the Lebanese military did to a burgeoning al 
Qa'ida cell within Palestinian camps in Lebanon as a defeat. 
They saw the fact that the Saudi Government drove al Qa'ida in 
the Arabian Peninsula largely out of Saudi Arabia into Yemen as 
a defeat.
    So this is not a group that will, with any joy, pick up and 
leave from this particular area, which makes this particular 
area important. And it is one of the reasons why recapturing 
Afghanistan is an important objective for these guys.
    Now, Mr. Chairman, you raised the excellent question of how 
are these groups intertwined; and I think that has also been 
blurred in the discussion somewhat. There is no meaningful 
difference in the ideology that the Taliban, the Afghan Taliban 
pursues, the ideology that the Pakistani Taliban pursues and 
the ideology that al Qa'ida pursues. They all agree that 
temporal secular states are evidence of apostasy and, in fact, 
of polytheism.
    They all agree on the basics of how the Muslim community 
should be ruled. The Afghan Taliban, the Quetta Shura Taliban 
sees itself as the Islamic Emirate of Afghanistan. It is the 
franchise that will control that part of territory. The Tehrik-
e Taliban in Pakistan (TTP) sees itself as the franchise that 
will control Pakistan. But all of that is under the umbrella of 
an al Qa'ida effort to reestablish the caliphate for the entire 
Islamic world.
    So there is a differentiation in the sense of the Taliban 
group saying, This is our front, that is your front and this is 
somebody else's front. But there is not a differentiation in 
terms of the objective. And I think it is very important to 
understand that, as well, because if you ask the question, is 
the Afghan Taliban now plotting to attack the United States 
here, the answer is ``no.'' If you ask the question, is there 
any basis to believe that over the long term if you allowed the 
Taliban to persist in Afghanistan, it would not develop in the 
direction of pursuing global jihadism, the answer is ``no.'' 
There is no reason particularly to think that, except that it 
hasn't had the opportunity to do that yet. But it would be 
fully consonant with its ideology to pursue that objective.
    The Tehrik-e Taliban in Pakistan has already indicated that 
it had the objective of attacking the United States. Baitullah 
Mehsud said he would attack the White House. Now, there is not 
a lot of teeth behind that, but you do have the stated 
intention.
    So when you are talking about defeating al Qa'ida, I don't 
believe that you can separate that from the problem of 
defeating its allies and its local proxies. And that is how we 
get to counterinsurgency. And that is why I think that a 
counterterrorism strategy has to be embedded within a 
counterinsurgency strategy, or at least has to be married to a 
counterinsurgency--it doesn't necessarily have to be 
subordinate to it--because I don't think that we can succeed 
with a counterterrorism strategy that actually aims at what I 
think we need to aim at, which is defeating these organizations 
without defeating the insurgent groups.
    And I would like to just make a couple of quick points and 
then I will stop. First of all, there is a straw-man argument 
that is sometimes put out that some of us have been religiously 
converted to the ideology of counterinsurgency, and wherever 
there is a conflict, we see an insurgency and we want to use a 
counterinsurgency approach. I certainly don't feel that way. I 
know that General McChrystal doesn't feel that way.
    It is weird to make that comment about General McChrystal. 
This subcommittee probably knows General McChrystal better than 
any collection of Congressmen that there are. This guy knows 
all about counterterrorism. If he is coming to tell you that 
you need to do counterinsurgency, it is not because he has 
drunk that particular Kool-Aid.
    I just look at this and say, Look, you have this alliance 
of groups with similar objectives. We have to defeat them all. 
Though on our side of the border, the ones we are facing are 
primarily insurgents. The way that you fight insurgents is with 
counterinsurgency doctrine. If they weren't insurgent groups, I 
wouldn't be advocating that. And I think that is an important 
straw man.
    And lastly, I will tee this up so that my colleagues can 
defend their propositions. I will show my cards in advance 
instead of ambushing them. I want, first of all, to correct 
what I am sure was an unintentional misstatement in Bob Pape's 
recent op-ed. General McChrystal's own report says--he explains 
that American and North Atlantic Treaty Organization (NATO) 
forces are a major cause of the deteriorating situation because 
they have been viewed as foreign occupiers.
    The assessment does not say that. I don't believe that 
General McChrystal anywhere says that he believes that American 
forces are seen as occupiers. And, in fact, the assessment has 
prominently a quotation from the Afghan defense minister who 
says, Afghans have never seen you as occupiers, even though 
this has been the major focus of the enemy's propaganda 
campaign.
    And I think it is an important point because I don't agree 
with the assertion that we are generating this problem by our 
presence in Afghanistan, and I don't believe--I think that 
there is also a problem with the statistical correlation of 
rise in violence as resulting from increased troop presence.
    In fact, the increased troop presence has lagged behind the 
rise of violence generally. For example, in fiscal year 2005, 
there were about 19,000 U.S. soldiers in Afghanistan. In fiscal 
year 2007, there were about 23,700 U.S. soldiers in 
Afghanistan. Pretty constant. By the way, a tiny footprint. If 
that is an occupation, then one soldier is an occupation.
    With 19,000 American troops in a country of 30-some million 
people, one-and-a-half times the size of Iraq, virtually no 
Afghan ever sees an American soldier. So what you are talking 
about is enemy propaganda. And I would submit to you that the 
minimum required number of American troops in order to be 
occupiers is one.
    But in that period, the number of suicide attacks, as Bob 
points out, went from 9 to 142. Was that a response to the 
increase by 4,500 American soldiers? I don't think so. That is 
not what that was about.
    What was going on was that in the period between 2002 and 
2005, the insurgent--the Taliban, which had been eliminated 
from power in 2001 in Afghanistan was reconstituting. It was 
redeveloping its capability. It was reestablishing its networks 
within Afghanistan; it was reestablishing its leadership 
structure and preparing for an insurgency.
    It began to launch that insurgency in 2005, which is why 
violence began to rise. We very slowly and cautiously--too 
slowly and cautiously in my view--started to increase our 
forces in response to that. Naturally, that created more 
military targets for the Taliban to go after, which is one of 
the reasons Improvised Explosive Devices (IEDs) went up.
    In other words, I dispute the causal relationship between 
the presence of U.S. forces and the increase in violence here. 
This was an insurgency that had as its objective retaking 
Afghanistan not because we were there, but because they had 
been the government. That is what they were trying to do. And 
they would have done that whether we were there or not.
    The question we have to decide is, do we think it is okay 
if they do? Or do we think it is okay--do we think that we can 
have a counterterrorism strategy with the civil war that will 
ensue if we abandon the effort to establish counterinsurgency?
    Now, civil war may ensue anyway. We can fail. This is war. 
There are no guarantees. But I am as confident as I can be that 
if we adopt a remote approach to counterterrorism here, not 
only will we have a failed--totally, completely failed--state 
in Afghanistan with a lot of regional consequences that are 
very troubling, but I also believe we will have failed on the 
counterterrorism mission.
    Thank you.
    Mr. Smith. Thank you.
    [The prepared statement of Dr. Kagan can be found in the 
Appendix on page 34.]
    Mr. Smith. Dr. Pape.

    STATEMENT OF DR. ROBERT A. PAPE, PROFESSOR OF POLITICAL 
                 SCIENCE, UNIVERSITY OF CHICAGO

    Dr. Pape. Mr. Chairman, members of the committee, I am 
honored to be here today and pleased to discuss General Stanley 
McChrystal's proposal to commit an additional 40,000 troops to 
Afghanistan.
    General McChrystal's recommendation reflects a growing 
consensus that our current force levels cannot win the war 
against the Taliban; and his proposal has been called an 
``ambitious new course.'' In truth, however, it is not new and 
not ambitious enough.
    America will best serve its interest in Afghanistan and the 
region by shifting to a new strategy, offshore balancing, which 
relies on air and naval power from a distance while also 
working with local security forces on the ground. The reason 
becomes clear when one examines the rise of terrorist attacks 
in Afghanistan in recent years.
    General McChrystal's own report explains that American and 
NATO military forces themselves are a major cause of the 
deteriorating situation for two reasons. First, Western forces 
have become increasingly viewed as foreign occupiers. You see 
the quote on the screen from the report itself.
    Second, Western forces are viewed as supporting an 
illegitimate central government--again, directly from the 
report itself. Unfortunately, these political facts dovetail 
strongly with military developments in the last few years.
    In 2001, the United States toppled the Taliban and kicked 
al Qa'ida out of Afghanistan with just a few thousand American 
troops and mainly with a combination of American air power and 
local ground forces from the Northern Alliance. Then, for the 
next several years, the United States and NATO modestly 
increased their footprint to about 20,000, mainly limiting the 
mission to guarding Kabul. Up until this point, 2004, there was 
little terrorism in Afghanistan and little sense that things 
were deteriorating.
    Then the United States and NATO began to systematically 
extend their military presence across Afghanistan. This is 
NATO's own map of their plan to extend that presence. The goals 
were to defeat the tiny insurgency that did exist at the time 
and to eradicate poppy crops. Western military forces were 
deployed in all major regions of Afghanistan, including the 
Pashtun areas in the south and the east in 2006.
    Over these years, Western troop levels escalated 
incrementally from 20,000 in 2004 to 50,000 in 2007 to nearly 
90,000 today. General McChrystal's request for another 40,000 
is simply the next step in this escalation.
    As Western occupation grew, the use of the two worst forms 
of terrorism in Afghanistan, suicide attacks and IEDs, 
escalated in parallel. Let me focus on suicide terrorism, the 
biggest killer and greatest threat to Americans and the focus 
of my personal research efforts funded by Defense Threat 
Reduction Agency (DTRA) and the Carnegie Corporation in New 
York.
    There were no--as you can see from the slide, no recorded 
suicide attacks in Afghanistan before 2001 and only a small 
number in the immediate aftermath of America's conquest of the 
Taliban. But in 2006, suicide attacks rose ten times and have 
continued at that high level ever since. These attacks have 
been concentrated against security targets, that is, American 
and Western ground forces, not Afghan civilians, and nearly all 
the suicide attackers have been Afghans.
    The picture is clear. The more Western troops have gone to 
Afghanistan, the more local residents have viewed themselves 
under foreign occupation and are using suicide and other 
terrorism to resist it.
    I will be glad, by the way, in Q&A, sir, to respond to Dr. 
Kagan's specific challenges to this. If you would let me just 
continue with my prepared statement at the moment now, we will 
have plenty of time for that.
    Our central purpose in Afghanistan is to prevent future 9/
11s. And this, first and foremost, requires stopping the rise 
of a new generation of anti-American terrorists, particularly 
suicide terrorists, the super-predators who can kill large 
numbers of people.
    What motivates suicide terrorists is not the existence of a 
terrorist sanctuary, but the presence of foreign forces on land 
they prize. So it is little surprise that American troops on 
Pashtun homelands are producing anti-American Pashtun 
attackers.
    Second, it would be helpful to prevent a safe haven for 
terrorists, for them to use either as training or as safe areas 
for their leaders. This is not as important as our main goal, 
since the main training for the 9/11 hijackers occurred in 
American flight schools, but this goal would help disrupt 
terrorist ability to organize and inspire any new recruits with 
impunity.
    Alas, adding 40,000 new troops is unlikely to achieve 
either of our goals. It would probably add to the sense of 
occupation, while not preventing Taliban areas from spreading. 
The reason is clear when you compare General McChrystal's 
request to the requirements for counterinsurgency (COIN) in 
General Petraeus' COIN manual.
    The Petraeus counterinsurgency manual has two requirements, 
and McChrystal's recommendation falls short on both. The first 
is the need for a legitimate central government around which to 
rally local support from the population. In fact, I am quoting 
you directly from General Petraeus' manual that this is 
actually the most important of our objectives.
    And, of course, the widespread fraud by Karzai in the 
August election raises a serious issue about whether our 
military forces are now engaged in supporting an illegitimate 
government that does not have the consent of the people.
    The second requirement is a 1-to-50 ratio of troops to 
population. For Afghanistans, over 13 million Pashtuns in the 
south and the east, this comes to 265,000 troops or 175,000 
troops beyond our current level, or 135,000 beyond General 
McChrystal's request. Hence, adding 40,000 troops for COIN 
would be a half-measure that does not guarantee success by its 
own doctrine while increasing the sense of occupation that 
motivates suicide terrorists.
    I think we need to consider other alternatives. Overall, I 
believe our best strategy is offshore balancing, relying on 
air, naval and rapidly deployable ground forces, combined with 
training and equipping local groups to oppose the Taliban. This 
strategy is what toppled the Taliban when it controlled 90 
percent of the country in 2001, and it is our best way to 
prevent the Taliban from seizing Kabul, establishing 
significant terrorist camps in Afghanistan and controlling 
large areas as safe havens for Taliban and al Qa'ida leaders. 
It is also a strategy that will prevent the rise of a new 
generation of anti-American suicide terrorists, and so achieve 
our core interests in Afghanistan.
    We should transition to this strategy over the next two or 
three years, say, by the end of President Obama's first term.
    And given the ethnic divisions in the country, the first 
step is to use political and economic means to empower local 
Pashtuns to achieve greater autonomy from all outsiders, 
creating a third option between the Taliban and Western 
domination. A similar strategy of empowering Sunni groups in 
Anbar reduced anti-American terrorism in Iraq and is our best 
way forward in Afghanistan.
    Mr. Chairman, I would like to refer you to my written 
testimony which includes background slides for a strategy of 
local empowerment in Pashtun areas.
    Thank you.
    Mr. Smith. Thank you very much.
    [The prepared statement of Dr. Pape can be found in the 
Appendix on page 38.]
    Mr. Smith. Mr. Nelson.

      STATEMENT OF RICK ``OZZIE'' NELSON, SENIOR FELLOW, 
   INTERNATIONAL SECURITY PROGRAM, CENTER FOR STRATEGIC AND 
                     INTERNATIONAL STUDIES

    Mr. Nelson. Chairman Smith, Ranking Member Miller, 
distinguished members of the subcommittee, thank you for the 
opportunity to discuss this important topic.
    I come to you today as a recently retired Navy officer who 
has spent most of his last decade focused on the challenges of 
combating global terrorism, including assignments at the 
National Counterterrorism Center and the National Security 
Council. In April, I returned from a tour of duty in 
Afghanistan where I was director of a joint task force in 
support of Operation Enduring Freedom. During the next few 
minutes, I plan to discuss the threats posed by al Qa'ida and 
other terror groups and how they should figure into debates 
over U.S.-NATO strategy in South Asia.
    It can be difficult to assess the current state of al 
Qa'ida and other globally focused terrorist organizations. We 
are told that Afghanistan has fewer than 100 al Qa'ida 
operatives, but that the failure of the Afghan Government will 
lead to the group's inevitable return to the State.
    The Director of the National Counterterrorism Center 
reports that al Qa'ida's haven in the federally administered 
tribal areas, the FATA, is shrinking. You have militants there, 
including al Qa'ida, that have launched a spate of attacks in 
Pakistan over the last weeks. And descriptions of al Qa'ida's 
crisis of leadership are tempered by revelations of a suspected 
jihadist cell in New York.
    Here is what we do know: Al Qa'ida remains intent on 
attacking the United States and our friends and allies across 
the globe. The organization maintains transnational reach, but 
is rooted in Pakistan's semi-governed tribal areas. As Admiral 
Mike Mullen, Chairman of the Joint Chiefs of Staff, noted 
recently, any al Qa'ida attack on the U.S. is likely to emerge 
from the FATA.
    On a more immediate level, al Qa'ida operatives in 
northwest Pakistan are believed to have teamed with other 
militant groups, including the TTP and recent attacks in 
Pakistan and India.
    Al Qa'ida offshoots remain active beyond South Asia. Al 
Qa'ida in Iraq (AQI) gained notoriety for its brutality during 
the early stages of the Iraq war. While its influence has 
subsided since the Sunni awakenings, AQI, still threatens 
regional stability in the Middle East.
    I have increasing concern there are several al Qa'ida 
associated groups in North Africa, Southeast Asia, Yemen and 
Somalia. The case of Somalia, like Pakistan, highlights the 
dangers posed by collaboration among different extremist 
groups. In recent testimony before the Senate Homeland Security 
Committee, FBI Director Robert Mueller suggested that the 
Somalian insurgent group al-Shabaab has grown close to al 
Qa'ida. This development has helped propel al-Shabaab, 
originally a Somali-focused insurgency, into a terrorist 
organization with global reach, including contacts in the 
United States. This trend is illustrated by a recently 
uncovered plot to recruit Minnesota-based Somali immigrants to 
fight with al-Shabaab.
    Along these same lines, officials in September arrested 
three Afghan citizens and U.S. legal residents on charges of 
lying in a matter involving terrorism. The key figure in these 
arrests, Najibullah Zazi is believed to have been planning 
explosive attacks in New York after receiving training at an al 
Qa'ida camp in Pakistan in 2008.
    While these developments represent an expansion and a 
flattening of al Qa'ida's global scope, they should not be 
taken to minimize the continued importance of the group's 
senior leadership, including Osama bin Laden and Ayman al-
Zawahiri. On a functional level, these men remain active, most 
likely in Pakistan's semi-governed tribal areas. On a larger, 
more symbolic level, they drive al Qa'ida's agenda by inspiring 
future jihadists and by reminding everyone, including U.S. 
officials, of their organization's resilience.
    Successfully combating al Qa'ida ultimately will require 
puncturing the group's cult of personality by capturing and 
killing senior leaders, including bin Laden and Zawahiri.
    What I have tried to do in this brief overview is to show 
that al Qa'ida, despite certain setbacks, remains global in 
scale and determined to attack the United States. The epicenter 
of its power lies in Pakistan's semi-governed tribal areas.
    It is important to appreciate how this fact relates to 
Afghanistan. We should recall that the U.S. invaded Afghanistan 
to defeat al Qa'ida, but ask foreign policy analysts why U.S. 
and NATO forces remain in Afghanistan today and you are likely 
to see a flurry of different responses. Defeating the Taliban, 
stabilizing and rebuilding Afghanistan and maintaining American 
credibility are just a few of several reasons given in addition 
to counterterrorism for our continued presence in the country.
    These are all laudable goals, but the White House must 
ensure that combating global terrorism generally and al Qa'ida 
specifically remains a strategic anchor in Afghanistan. Framing 
American interests in this fashion will lead us to ask 
important questions of the various strategies now being 
debated.
    I will conclude by posing just one question: What effect 
would additional troops in Afghanistan have on the stability of 
Pakistan? After September 11th, American troops and our allies 
essentially pushed extremists out of Afghanistan and into 
Pakistan, which heightened terrorist activity in northwestern 
Pakistan. Over the last year in particular, we have seen a mix 
of al Qa'ida, TTP, Lashkar-e-Jhangvi (LeJ) militants strike 
large Pakistani cities and military facilities with increasing 
frequency. Meanwhile, the FATA haven serves as a primary base 
for al Qa'ida's global terrorist agenda. These developments are 
troubling not just because they endanger a nuclear armed 
regime, but because the U.S. is largely powerless to combat the 
threat without Pakistani support.
    Fortunately, Pakistan's military has just become a 30,000-
troop assault on al Qa'ida- and Taliban-controlled territories 
in South Waziristan, the type of campaign that U.S. 
policymakers have long sought. As Pakistan confronts extremists 
in its northwest, we must be careful to ensure that any U.S. 
troop increases do not push insurgents in Afghanistan across 
the border. This would effectively heighten extremist activity 
in the FATA and make Islamabad's mission even more difficult. 
Indeed, in meeting with General Petraeus and Senator Kerry 
earlier this week, Pakistani Prime Minister Yousuf Gilani asked 
the U.S. and NATO forces to restrict militant infiltration from 
Afghanistan into Pakistan.
    In the end, any regional strategy which shores up 
Afghanistan while destabilizing Pakistan will detract from our 
goals of combating terrorism.
    I would be happy to elaborate on this and any other issues 
during our questions. Thank you again for inviting me to speak 
today. I look forward to your questions.
    Mr. Smith. Thank you.
    [The prepared statement of Mr. Nelson can be found in the 
Appendix on page 47.]
    Mr. Smith. Thank you all.
    I will start with--we will put everybody on the five-minute 
clock. I will try to get two questions in. I will just start 
with one basic one for Dr. Pape.
    I think you have hit upon one of the great challenges of 
what any counterterrorism or counterinsurgency effort is. You 
have to defeat the terrorists without alienating the 
population. In some places, that is easier than others. In the 
Philippines we have had some success, I think in that area 
because it was not as violent and as out of control. And we had 
a local partner that we could work with.
    But the one question I have off the top about your strategy 
of a sort of standoff approach, I mean, we are going to be 
creating just as many terrorists, if not more, if we are 
bombing them from afar than if we happen to be in their village 
trying to fight them that way. In fact, that is one of the 
things that General McChrystal has really focused on, this 
standoff aerial campaign approach has vastly more civilian 
casualties and alienates the population even to a greater 
extent. So what are we truly accomplishing if we say we are 
going to cut in half the number of troops and just launch 
missiles at you?
    Dr. Pape. Sir, I think your question is excellent. And I am 
not calling for sort of increasing numbers of drone attacks. I 
am not calling for let's just kind of replace ground troops 
with still more application of air power. In fact, I think that 
probably what we need to look at is actually even a reduction 
in our drone attacks.
    Let me explain this by showing you the kind of base that 
bin Laden had in Afghanistan in 2001 before 9/11. I think it 
would be very helpful. I am not sure, you may have seen this 
base before, sir; but this is what we call a ``terrorist 
camp.'' Notice how--this is a base, sir; this is like Maxwell 
Air Force base where I taught for three years.
    So when we talk about a terrorist training facility before 
9/11 that al Qa'ida had in Afghanistan, we don't mean three 
buildings. We don't mean one safe house for some suicide 
terrorists somewhere in----
    Mr. Smith. Got that. I am a little short in time here. How 
are we working back to the question?
    Dr. Pape. The question is, sir, that I believe what we need 
to do is focus on preventing camps, large camps, not every safe 
house.
    And so, sir, I think that if we are going to attack safe 
houses, then we need to be much more judicious in attacking 
safe houses. And specifically, sir, we need to ask the 
following risk/reward question.
    At the moment, the way risk/reward works when we go after 
safe houses, as you probably know, is we run it through Judge 
Advocate General (JAG) and what we do is we say, is the benefit 
of getting this terrorist worth the loss of X number of Afghan 
civilians on the side?
    The real risk/reward ratio, sir, is different. Every time 
we go after a safe house, what that is going to do is probably 
produce collateral damage which will produce suicide terrorists 
who will want to kill Americans.
    Mr. Smith. General McChrystal quotes that all the time. I 
will come back to that. I have another question.
    But the trap is, either we are fighting them or we are not, 
to a certain extent. If the strategy is, we are going to pull 
back and stop fighting them, I think that the benefit that you 
identify is there, but the detriment is there as well. There is 
this--there is no way no matter how you do it, to sort of half-
fight them and fight them in a way that doesn't create some 
animosity.
    So whether you are doing it standoff, whether you are being 
careful about what you are bombing, wherever you are at, if you 
are accepting as part of the strategy that there are bad guys 
there that we need to try to take out in some way, we are still 
kind of in that tension that you have.
    But I want to ask Dr. Kagan. I mean, the big question 
here--and this is the challenge. We don't have a local partner. 
We certainly can't put enough troops in there to do a 
counterinsurgency for the full population, the 30 million 
population. These are both true. I mean, part of the strategy 
that is talked about now is going to try to secure pieces of 
the population within classic counterinsurgency doctrine.
    We also have a major problem in terms of unity of effort. 
We have so many people involved there, not just militarily, but 
Non-Governmental Organizations (NGOs), various development 
groups. I mean, they are all sort of going past each other and 
wasting money in an incredibly inefficient way.
    With those three great challenges, how do we go forward and 
implement even a more limited, more strategic counterinsurgency 
strategy?
    Dr. Kagan. If this were easy, you probably wouldn't be 
holding hearings about it, and we wouldn't be having this 
discussion. It is hard.
    I want to make note of the fact that what--the quote from 
FM3-24 actually is that the primary objective of 
counterinsurgency is to foster the development of an effective 
and legitimate government. That is an output; it is not an 
input. You don't--it is not the case that you can't do 
counterinsurgency if the government is not legitimate. If the 
government----
    Mr. Smith. Don't get me wrong. Just for the record, I want 
to be clear that I don't buy into this notion that unless you 
can, like, build Minneapolis in Afghanistan, somehow you don't 
have an effective counterinsurgency strategy, that unless you 
can have an overwhelming force, you can't possibly succeed. I 
mean, we saw that wasn't true in Iraq.
    I think you can have a more limited, realistic goal and 
still have an effective counterinsurgency strategy.
    So this idea that counterinsurgency is some big, grand--
presto, instantaneously build the most modern, sophisticated 
civilization ever is ridiculous. So I am with you on that.
    But from that, there is a good deal of distance between 
that and where we are at in Afghanistan, and I am trying to 
carve out what that realistic strategy is.
    Dr. Kagan. And you have put your finger on one of the most 
glaring lacunae in the administration's approach to this 
problem. General McChrystal has put together--in my biased 
opinion, since I have participated in it--a very good 
assessment of the situation and a very good recommendation for 
a military plan that also goes pretty far toward recommending 
some of the key political changes that need to be made.
    Mr. Smith. It says a heck of a lot more than 40,000 more 
troops. Everyone is fixed on the 40,000 more troops. It is a 
60-some-odd page report that gets into a lot of important 
detail.
    Dr. Kagan. The question is, where is the political 
strategy? Where is Ambassador Holbrooke's assessment and 
recommendation? Where is Ambassador Eikenberry's assessment and 
recommendation? Where is Secretary Clinton on this?
    This is, I hope--as the Obama administration goes through 
this review, I believe--if you come to a second round of 
questions and want to spend more time on this, I can lay out 
what I think something like that would look like.
    Mr. Smith. I think we will do that.
    I don't want to set a bad precedent here, so we will go to 
Mr. Miller.
    Mr. Miller. Thank you.
    And, Dr. Kagan, I agree. I think there is a weak link, and 
that weak link may very well be with State Department in 
regards to what their activities are going to be.
    But I would assume that all three of you read or are aware 
of Max Boot's article yesterday in the New York Times. Could 
you comment a little bit on the statement that he made that 
said, basically, only by sending more personnel, military and 
civilian, can President Obama improve the Afghan Government's 
performance, reverse the Taliban's gains and prevent al 
Qa'ida's allies from regaining the ground they lost after 9/11? 
Could you?
    Dr. Pape. Yes, sir. I am glad to.
    I think--I respect Max. I think that he is right that where 
our troops are at the moment--that is, if you take our military 
forces and put them down in a certain area, a neighborhood--
they are able to pacify that area. I have great respect for our 
troops.
    The problem that we have is that the COIN doctrine would 
require 265,000 American forces for this purpose, and we just 
simply don't have the troops to do that. And that is only for 
the south and the east, and that would be if we abandoned all 
of the rest of Afghanistan.
    So the problem we have, sir, is, if we are going to sort of 
go big, then we have to be still more ambitious because this 
idea of the gradual drip by drip by drip that we have been 
going through for the last few years, I am afraid is actually 
producing more suicide terrorists than it is killing.
    Dr. Kagan. If I can comment, first of all, I have to take 
exception with the COIN math that is being laid out here. It is 
not a requirement of one American soldier for every 50 of the 
population. It is a requirement for one counterinsurgent for 
every 50 of the population. And in counterinsurgents we include 
American soldiers, we include the NATO forces that are 
operating, which are a significant number of troops, and we 
also include any effective, indigenous forces that are 
operating. And in this case, there are about 100,000 troops in 
the Afghan National Army, and they are pretty darned effective.
    The Afghan National Police I am willing not to count 
because they are very corrupt and inefficient and so forth, 
although elements of them operate.
    That gets you up to about 200,000 right now. If you add 
40,000 American troops, it gets you up to 240,000. We are 
planning to bring Afghan National Army, just army, up to 
134,000 by next year. That covers the gap. So the notion that 
this is not doable from the standpoint of the COIN math, I 
respectfully disagree with that.
    But the key point in your question, which I really think 
needs to be emphasized, is that American troops and NATO troops 
affect governance at the local level and they can affect 
governance at the national level, too. And we saw this very 
clearly in Iraq.
    American forces engaged in counterinsurgency do not simply 
spend their time kicking down doors and pulling bad people out 
and shooting people. They also spend their time being eyes and 
ears on the ground, developing tremendous assets, especially 
for local intelligence, and in turn feeding that up the chain 
of command. And in Iraq, the model that I would give you for 
the role that the military can play in developing governance is 
how we curbed sectarian death squad activity, supported by 
senior leaders within the Iraqi Government, relying on 
intelligence that was developed by our soldiers on the ground; 
and relying on those soldiers, those officers on the ground--
brigade commanders, battalion commanders, sometimes company 
commanders--to address malign actors within their areas and 
then coordinate with senior leadership to address at the 
highest level.
    I believe that that approach can be modified to address the 
fact that it is not sectarian death squads in Afghanistan, it 
is abuse of power and corruption and so forth to identify and 
put pressure on key malign actors to facilitate a governance 
program. But the military is an essential component of that 
because without the military forces you don't have the access 
to the population that you need to understand what is going on 
and affect it.
    Mr. Miller. Dr. Pape, could you respond to the math?
    Dr. Pape. Yes, sir. I think the best way is to actually do 
it in Iraq and Anbar, because we had a similar situation. You 
remember in Iraq, we had this huge problem, this insurgent out-
of-control problem, especially in Anbar. We also had this whole 
debate were we building an Iraqi Army and so forth and was it 
going to work and all that kind of stuff.
    But let's look right at Anbar, sir. If you look at the 
chart about what actually changed in Anbar, between September 
2006 and September 2008--I am sure you have seen charts that 
the attacks went down against Americans. That definitely 
happened; Anbar definitely quieted down. The question is why.
    First, American troops and the coalition did not actually 
increase their aggregate number of troops. We did put more 
troops in Iraq, but as others were leaving. So we essentially, 
in the aggregate, came down.
    Second, if you look at the number of troops specifically in 
Anbar, they only go up a teeny, tiny amount. The real change--
and we would have needed 100,000 by COIN doctrine. The real 
change occurred in the Sons of Iraq; that is, they went from 
5,000 in September 2006 to 100,000 in September 2008.
    So, sir, yes, the COIN math probably does work and, yes, 
locals can backfill. But we actually have to have real locals 
from the local area doing the heavy lifting. That is what we 
did in Anbar, and that actually worked quite successfully. And 
what my local empowerment strategy is calling for is to try to 
do the same thing to a large degree in the Pashtun areas of 
east and southern Afghanistan.
    And let me also just add, sir, I was not against the idea 
of sending 20,000 troops to Baghdad in December 2006. I 
supported the idea here of what became called The Surge in 
Baghdad because there you had Sunnis killing Shi'a, Shi'a 
killing Sunnis.
    That is not what we have here in Afghanistan. We do not 
have Tajiks killing Pashtuns. We do not have Pashtuns killing--
we don't have this big rivalry that way.
    What we basically have is an ideological battle occurring 
among the Pashtun south; and for that, it is very similar to 
Anbar. Anbar is our best analogy, not Baghdad. And this is what 
happened and what calmed down Anbar.
    Mr. Smith. Thank you.
    Mr. Langevin.
    Mr. Langevin. Thank you, Mr. Chairman. I want to thank our 
panel for your very thoughtful testimony here today. And it is 
obviously very helpful as we are all struggling in trying to 
get our arms around the way forward in Afghanistan.
    I guess at this point my question would be, assuming that 
we, instead of going with the counterinsurgency strategy, we 
focus more on the counterterrorism strategy, as Mr. Pape has 
suggested, what is the best- and worst-case scenario of that 
strategy?
    I would like to hear from Mr. Pape and then, if I could, 
Mr. Kagan.
    Dr. Pape. Thank you, sir. I think that is an excellent 
question.
    I think that the worst-case scenario is essentially a 
freeze of today's status quo. I think that it is the case today 
that, as best I can tell, the Taliban control--and what I mean, 
by ``control'' is, they are in village areas 24/7, with sharia 
courts, something like 10 percent of Afghanistan and about 20 
percent of the southern areas in the south and in the east.
    I think that my strategy is effectively calling for the 
containment of those areas and then the gradual shrinking of 
those areas over time through this local empowerment strategy. 
But it may not work. I think that this--the worst case, though, 
is that it stays the same.
    And what I think is the best case is that as we shift to 
the offshore balancing strategy over the next two or three 
years, you will see the radical reduction in suicide attacks, 
anti-American suicide attacks, that we are now seeing in Iraq 
as we are building up the local militias in Anbar Province. 
What that has done is, it is allowing us to actually withdraw 
forces.
    And we are not just withdrawing forces from the country. 
Notice how we pulled them back from cities. Over the last year 
and a half, we have had a radical difference in the military 
occupation of Iraq and that has actually caused suicide attacks 
in Iraq to go down almost 85 percent.
    Mr. Smith. I am sorry. I just have to interrupt.
    Obviously, the best way to prevent suicide attacks against 
U.S. troops is to pull the troops out. There isn't any argument 
with that because then they are not there to be attacked.
    The argument and the issue is, what does that do to the 
Taliban's ability to control greater amounts of territory and 
not, in essence, be stopped? That is the tension.
    Dr. Pape. Sir, I would add one other point which is that 
our presence there is not only threatening--it is not just 
suicide attacks against our troops. We just arrested an Afghan 
national from Colorado with links to this area, clearly 
motivated by--or possibly, allegedly motivated anyway by our 
presence there--who was doing reconnaissance for attacks in the 
New York subway system.
    So, sir, I would not think that what is happening is that 
the threat to Americans of suicide--anti-American suicide 
terrorism is limited to what is happening in Afghanistan. I am 
afraid that what we have seen time and again--in Madrid, what 
we have seen in the London bombings--what we have seen is that 
this motivates suicide terrorists to attack us here, or our 
allies.
    Mr. Langevin. Thank you.
    Mr. Kagan, best-case and worst-case scenario if we go with 
counterterrorism versus counterinsurgency.
    Dr. Kagan. Osama bin Laden's given reason for attacking the 
United States was because of the presence of American forces in 
Saudi Arabia at the invitation of the Saudi Government which he 
defined as an occupation. If you are going to call for making 
decisions based on the enemy's propaganda line, then I think 
you are going to have a very difficult time coming up with any 
rational strategy.
    I completely disagree with Dr. Pape's analysis of what the 
worst-case scenario is. The Taliban is very strong now in the 
south, and it has been gaining strength. This is General 
McChrystal's assessment, and it is the assessment of almost 
anyone who has looked at the situation over there.
    Were we to reduce our footprint significantly and move to a 
counterterrorism approach, Kandahar City would fall rapidly 
into Taliban control. They now control and effectively govern 
almost all of the areas around Kandahar City. Helmand River 
valley would also fall back under complete Taliban control 
where now we are contesting areas within it. The surrounding 
provinces of Oruzgan, Zabol, Ghazni into Farah, Nimruz would 
also fall under complete Taliban control. The Government of 
Afghanistan does not have the military capability to prevent 
this from happening.
    We are still--we have already begun to see the mobilization 
of the Tajiks and Uzbeks in response to the perception that the 
United States might be pulling out and abandoning them to this 
conflict, and I believe that there is a very high probability 
that you would see a full-scale civil war reemerge as either 
those groups launched preemptive attacks to prevent a Taliban 
takeover of the sort that occurred in the mid-1990s or that the 
Taliban launch such a takeover attempt, which is clearly its 
intent.
    I don't see any force in Afghanistan right now that would 
be capable of resisting the Taliban's pressure or deterring the 
reemergence of the Northern Alliance and the redevelopment of a 
civil war.
    In that scenario, it is impossible for me to imagine that 
the United States will be maintaining footprints within 
Afghanistan from which to be conducting counterterrorism 
operations. I think that is a preposterous notion from a 
logistical standpoint, from an image standpoint, and I think it 
is militarily infeasible. So that is the worst case. I also 
think that it is the most likely case.
    We can describe a best case, I suppose, in which the 
Northern Alliance, perhaps with our assistance, crushes the 
Taliban, crushes the south and then we somehow manage to 
support them over the years in maintaining dictatorial rule 
over the Pashtuns which will inflame Pashtun nationalism 
throughout the region. But I can hardly call that a good 
scenario. I do not believe there is any good scenario that can 
emerge from the adoption of such a strategy.
    Mr. Smith. Mr. Shuster.
    Mr. Shuster. Thank you.
    Dr. Pape, back to your math again on the 50-to-1 ratio. In 
the COIN strategy it is a 50-to-1 strategy, but you make the 
argument when you talk about Anbar, it doesn't say, that I am 
aware of, that it is 50-to-1 U.S. or International Security 
Assistance Force (ISAF) troops that make up that ratio. It 
talks about police, military, U.S. troops, ISAF troops.
    And you make the case in Anbar province that it was the 
Sunni awakening, that is what raised the ratio up and that is 
the success. And I think that is the same thing that General 
McChrystal is trying to accomplish in Afghanistan.
    But you keep coming back to it, that it is faulty. I don't 
understand what your math is. And when you put the numbers 
together, you can achieve that if we have the right people 
there to train up the Afghan army and the Afghan police.
    Dr. Pape. Yes, sir. I don't think the real issue here is 
actually discrepancy over math per se. I think that everybody 
recognizes that we need local allies to help us in Afghanistan. 
That is what you are really hearing. So we should just go focus 
right on that issue.
    This issue of trying to kind of hold things together--you 
know, bit by bit by bit with another half-measure, another 
half-deployment of American forces--is actually pushing off the 
day when we will be able to truly engage the local population; 
and that is really our dilemma.
    And the reason we are not able to engage the local 
population today is not that we haven't tried. We have sort of 
offered money and we have offered bribes, but we have done it 
in a way where we are expecting the local population, the 
Pashtuns, to basically become employees of the central 
government; that is, to fall under the broad rubric of the 
central government, sir.
    That is not what we did in Anbar. The Anbar awakening is 
not being run by the Shi'a. In fact, if you remember, sir, in 
Iraq, the Shi'a government was opposing this precisely because 
they were partners, not employees.
    So our real----
    Mr. Smith. Sorry to do this again.
    How does that get--and I am with you totally about the 
mistakes. And McChrystal talks a lot about those mistakes as 
well and how you need to change that. But how does that get 
easier to flip those people if we start pulling out en masse?
    How do--I mean, you are looking to flip a local Taliban 
person. He is, like, okay, the Taliban is here and they are 
headed out. It just doesn't make any sense.
    Dr. Pape. Yes, sir. What is strengthening the Taliban today 
is not their numbers. Because, as you know probably better than 
I do, the assessments by the experts are that there is 
somewhere between 10,000 and 40,000 Taliban fighters in the 
country; and, of those, the experts are kind of agreeing that 
10,000 are the hard core. Well, that is the number. So the 
Taliban clearly are not winning by numbers of hard-core 
fighters. What they are winning by is support from the local 
population, which they are getting from three sources:
    Number one, opposition to America's military presence and 
our forces just simply being there and then also carrying out 
operations that lead to collateral damage which has not just 
happened for a year, but it has been going on nearly eight 
years, sir. Second is money. Third is arms, in some cases.
    So what I am calling for, sir, is to reverse-engineer those 
three reasons for that local support.
    Mr. Shuster. What you left out was the fear factor. We were 
there once, and we left them, and the Taliban came back in and 
started to kill people. That is another reason why they are not 
trusting us to be there, and now I think that is what General 
McChrystal is reversing.
    And following what the chairman has said, how do you get 
them to trust us when you pull in and you pull out and you let 
the bad guys in?
    I am pretty clear on your position. I don't agree with it.
    But I would like to ask--I read a recent article in 
Strategic Forum that talked about the most significant problem 
in Iraq; and turning to Mr. Nelson first, if I could, the unity 
of effort on our part. We have dozens of international 
organizations, other countries in there. How do we pull that 
together and make that unity of effort not only with the dozens 
of countries but with our own military units over there? And 
where do you see that improving? Or how does it improve? Mr. 
Nelson.
    Mr. Nelson. That is a terrific question. I think that is 
one of the reasons why the civilian component of our policy 
over there is so important.
    General McChrystal's strategy is the military strategy. We 
talk about the military surge, but we need a civilian surge as 
well. Those are the individuals who will help bring these 
different entities together.
    Information-sharing among the NATO partners remains a 
serious issue. Obviously, we have information-sharing caveats 
with some of our closest allies and partners. But some of the 
folks that we rely on the ground every single day, we don't 
share those same caveats.
    The good news is General McChrystal has taken that on and 
has said, I want to take the risk of sharing information 
because I think the benefits outweigh those actual risks. That 
is something that I think, from a Washington, D.C., 
perspective, that we can continue to do, is push the folks back 
here to curtail some of those information-sharing restrictions.
    Mr. Shuster. I think one of the important things that I 
have seen him do is he appointed General Miller to take on 500 
or 400 officers who are going to be committed to a three-year 
period. And I have asked the State Department on a number of 
occasions are they doing the same kind of effort, and they 
continue to say ``yes,'' but I see no evidence of that.
    Somebody here mentioned that General McChrystal's 
assessment didn't include Ambassador Eikenberry or Ambassador 
Holbrooke. So it seems to me like there is still a huge problem 
between State and DOD coming together, having a model. Petraeus 
and Crocker, they worked together seamlessly. So what are your 
thoughts on the State Department and what they are doing or not 
doing, Dr. Kagan?
    Dr. Kagan. Well, as I said, I think we are yet to see the 
development of a coherent political strategy, and I think that 
is a major failing on the State side.
    I think we have seen a mad scramble to try to recover from 
a crisis that we got ourselves into through nonfeasance while 
it was clear we were headed toward a fraudulent election. I 
think what we have gotten to now is a position where we have 
expended a tremendous amount of political capital that has not 
achieved our political objectives.
    So this is not an issue of interagency process or unity of 
effort. This is an issue of priority within the State 
Department and the way that it is structured and the way that 
its individuals are functioning, simply failing to come up with 
what should be their purview.
    If I could beg your indulgence briefly to comment on 
something that has been driving me crazy in this discussion, 
which is the characterization of the Sons of Iraq and Anbar, 
which I think is being completely mischaracterized, frankly.
    First of all, there were not five million people in Anbar. 
So the requirement for COIN is not 100,000.
    Second of all there, there were either 10,000 or 20,000 
Iraqi troops and police that were also in Anbar that were 
operating, which is one of the reasons why we got up to the 
COIN math at work.
    Third of all, one of the key parts of the agreement that we 
made all of the initial Sons of Iraq sign was an agreement to 
recognize the legitimacy of the Iraqi government and serve it; 
and we always had the stated intention, which has now been 
realized, of having the Iraqi government pay for the Sons of 
Iraq. So it is indeed the Shia who are now in control of that 
organization, and they have continued to pay it, and it has 
continued to work.
    So it is not the case that this movement erupted 
spontaneously without us getting to any kind of proper COIN 
ratio. Nor is it the case that this was just our agreement with 
them and had nothing to do with the Iraqi government.
    Mr. Smith. We have votes coming up. I will give Mr. Bright 
the last set of questions. This is supposed to take, once we 
leave, about a half hour. Hopefully, we could be back by 12:15, 
12:20 or so. Do the witnesses have another 25 minutes to take 
questions?
    Dr. Kagan. Sir, I have an interview at 1:30.
    Mr. Smith. Okay, we will try to wrap up fairly quickly 
after we return.
    Mr. Miller. Mr. Chairman, I was told that they were going 
to hold votes for 30 minutes. The GOP has a briefing going on 
right now on Afghanistan, so they are going to hold the board. 
So we may have a little more time.
    Mr. Smith. We will go to Mr. Bright.
    Mr. Bright. Thank you, Mr. Chairman, for holding this very 
valuable hearing. It is very obvious from the testimony today 
that there is not a clear-cut plan or strategy for our efforts 
in Afghanistan. I will be very brief.
    My question will go directly to Mr. Nelson. Mr. Nelson, can 
you tell me and elaborate somewhat as far as your opinion is 
concerned on what is the interconnection between the 
Afghanistan and the Pakistan Taliban? What is their 
relationship? How interrelated are they? How entwined are they? 
Do they share personnel? Do they share funds? If you would, I 
find your answer to that very interesting.
    Mr. Nelson. Thank you, sir. It is a great question.
    Personally, I think it is hard to tell at this juncture. We 
are not just dealing with the Afghan Taliban and the Pakistan 
Taliban. We have divisions in the Afghan Taliban. The Quetta 
shura. We have the Haqqani network and Hekmatyar as well; and, 
of course, on the Pakistan side, you have the TTP.
    Obviously, it is possible that they are sharing funds and 
are sharing resources; and some have argued, like Peter Bergen 
and Tony Cordesman, that they are intimately connected. But 
there are some very important differences, and the other 
speakers have highlighted this.
    The Taliban's goal in Afghanistan is to be in Afghanistan. 
It is not a global agenda. The al Qa'ida's agenda and its 
relationship to the Afghanistan Taliban is much more of a 
global agenda. That is the major difference there.
    So defeating the Afghan Taliban is important for 
Afghanistan, but it is not important strategically in the 
United States in preventing attacks against the United States, 
ultimately.
    Mr. Bright. Dr. Pape, let me commend you. I am aware of 
your tenure at Maxwell since I am from that area and was mayor 
of Montgomery for awhile. Thank you for your service down 
there. It is great to see you back up here.
    Mr. Chairman, I want to commend each person for their 
testimony. It has been very educational and very enlightening 
for me as a new member. Thank you very much.
    Mr. Chairman, I yield back the balance of my time.
    Mr. Smith. Thank you.
    Mr. Rooney.
    Mr. Rooney. I thank the panel for your excellent testimony. 
I know we have to run out of here shortly, so I will try to be 
brief.
    I am still kind of stumped on this issue of occupation, Dr. 
Pape, that you spoke of.
    Having read the McChrystal report--and I tried to 
understand what the General was asking the Commander in Chief--
one thing that sort of stuck out to me right from the get-go 
was that the situation is deteriorating. So the request 
initially for a troop increase would be followed by sort of 
this winning hearts and minds type philosophy of integrating 
with the Afghani population so that the intimidation and the 
threats to the local populations could be minimized.
    I know you didn't get into your specific plan because of 
time, and I tried to just skim through it very briefly, but I 
am kind of at a loss as to how you would go about integrating 
into the Afghani population.
    Aside from just money or paying them, how do you give them 
the sense that I am going to keep the Taliban and their threats 
at bay, and I am going to trust the Americans and the coalition 
forces to provide the kind of intelligence or help to the 
Americans in what we are trying to accomplish there, without 
having the sense that there is security in my village. I feel 
emboldened that I don't have to worry about these threats from 
the Taliban. How do you do that without having those guys on 
the ground in those villages?
    Dr. Pape. First, I think it is helpful to be clear when I 
said transition over two or three years I don't mean that we 
cut and run and pull all our forces out in year one. What I 
mean is year one we do a serious local empowerment strategy. 
That is why I offered those slides.
    Mr. Rooney. How do you do that?
    Dr. Pape. Glad to cover that, sir.
    Just so you follow the logic of what I am trying to do, 
this slide shows you what is happening right now is the more we 
occupied, we have to go through the villagers to try to get to 
the Taliban. The problem is that the villagers are loyal to the 
tribe. They are never going to be loyal to our western values, 
at least not in short term, and they are also not loyal to 
Islamic fundamentalism.
    What we are doing is, by trying to get to the Taliban by 
going through the villagers, we are pushing them together. What 
my local empowerment strategy is trying to do is pull back from 
the occupation and then grow the size of the villager bubble so 
that they can contain the Taliban, not without our help at all. 
And the way to do that, I have actually gone through and what 
the slides do is they offer you a real strategy for doing that.
    The key to the strategy is recognizing that, first of all, 
the problem we have today is part of our own creation with the 
constitution. We wrote or certainly helped construct the 
constitution which created for the first time in Afghanistan's 
history, sir, a top-down central government with very tight 
power of control in the presidency. It is President Karzai who 
picks the provincial governors. It would be like President 
Obama picking the governor of Illinois.
    Mr. Smith. Bad example.
    Dr. Pape. Well, I am trying to help you see that this is 
not even democracy by our own light, sir. And in this country, 
for hundreds of years, governance has gone bottom up from the 
tribal level. What we need to understand, the Taliban, we are 
giving them opportunities, sir. What we are doing is making it 
easy for them to exploit the local grievances against our 
occupation because of this top-down political flow, and so we 
need to reverse the arrow.
    We have had existing programs. I am glad to go through them 
in great detail, or some detail, and talk about why they are a 
problem. But, as I already hinted at, we are trying to make 
Pashtuns employees, not partners. And what I would do 
specifically is empower local Pashtun areas but differentially, 
not just across the board, but by trying to empower the groups 
who are really our potential partners, not those we can't work 
with.
    What I am doing on this slide is showing you there are 
large areas of the south and the east where the authority rests 
with tribal leaders and councils, many of which are now 
cooperating with the Taliban, but they are not doing it out of 
religious affiliation. There are areas controlled by the 
Taliban where there are not tribal leaders, or at least not 
independently. That is about 20 percent of the south and the 
east. And then there are drug lords, about 10 percent. They are 
not motivated by either tribe or religion; they are motivated 
by money.
    What my strategy would do is empower, one; marginalize, 
two; and reconcile, three. The remaining slides, we would go 
through each policy in detail for those three.
    Mr. Smith. If I can follow up--and hopefully we can wrap 
this up before the votes--everything you say--well, not 
everything but most of what you say makes a great deal of 
sense: what we have done wrong, the centralized government, 
basically treating the Afghans like employees. All of that is 
absolutely true. General McChrystal talks at great length about 
all of this in his report, about how we have made the mistake--
by, through and with. Classic counterinsurgency strategy has 
been totally ignored here. We have been dictating and 
directing, not doing by, through, and with.
    But the part that doesn't make any sense is how we can make 
this transition that you are describing, to do it differently 
with fewer people, for two reasons. Number one--forget the 
security issue. That is my second one. I will get to it in a 
minute. Just the basics of supporting them in setting up the 
rule of law and construction and schools and wells and 
everything, less is not more in that situation. They need more 
help, not less. So you keep saying we are going to change the 
strategy and do it with less people.
    Second, the other basic level here is you have got to have 
security. What the Taliban are doing village to village is a 
classic protection racket. You know, we are the only ones who 
can protect you. If you don't trust us to protect you, we will 
show you.
    If you cannot provide security, they have got no place to 
go. I will grant you we need to provide it better. I guess the 
way to sort of formulate that question is what Dr. Kagan 
described, if we don't increase troops and if we reduce troops, 
how the Taliban will continue to spread.
    As frustrated as I am by the situation in Afghanistan and 
what we have done wrong and what the Afghan government has done 
wrong, the lack of a reliable partner, I don't see how, if we 
don't increase troops, we begin to pull back in six months, 
whatever your timeline is, how the Taliban don't build on their 
successes and just take on more and more villages.
    You seem to be saying, we are going to change the strategy 
and empower them. With what? With whom? How are the Taliban, if 
they are doing as well as they are doing right now, how are 
they suddenly, magically not going to be doing too well when 
there is less resistance to what they are doing?
    Dr. Pape. Sir, I am not saying that we should pull out any 
troops in the first year, number one.
    Mr. Smith. I thought you said the worst-case scenario would 
be to keep things as they are.
    Dr. Pape. No, no, no, sir. I said the worst-case scenario 
would be that things would stay as they are.
    Mr. Smith. I don't know how that is different than what I 
said.
    Dr. Pape. I think his question was after two or three 
years. If you implement the whole strategy, after two or three 
years, what is the worst-case scenario? What I am trying to 
explain--and maybe I was unclear, and I apologize to the 
committee if I am unclear on this point, but I am trying to 
make it clear, which is that I am not calling for withdrawing 
troops in the first year or on some deployment schedule. What I 
am saying is what we should do in the next 12 months is not 
increase troops. We should dedicate ourselves--which will help 
protect the cities, the major areas. There will still be 
problems in the rural areas. I am not calling for the 
abandonment of major cities.
    Mr. Smith. One quick question of Dr. Kagan. What is wrong 
with that strategy? That is one of the things that is kind of 
emerging, not the pullout strategy, not even sort of a standoff 
strategy, just--look, we don't know exactly what we are doing 
there right now. So to commit more forces in that situation, 
the stress on our troops and the stress on our force, to ask 
them to go and fight in a situation that is as muddled as I 
think we have all kind of agreed, it is irresponsible.
    We simply have to do a containment strategy, hold the line, 
give McChrystal a chance, and hopefully get Eikenberry and 
Holbrooke more involved, figuring things out and moving us in a 
more positive direction, contain the Taliban from spreading 
further instead of throwing more troops into a confusing 
situation.
    Dr. Kagan. What is wrong with that is we can't do that with 
the forces we now have, and that is General McChrystal's 
assessment, and it is the assessment of his staff. I think it 
is very easily supportable by facts on the ground. So we will 
continue to lose ground with the current numbers because they 
are not adequate even with all of the in-theater readjustment 
that General McChrystal is undertaking to do this.
    And I think it is very important to note here that we 
really shouldn't be pulling troop numbers out of our fourth 
point of contact. This is not something where we just say, 
well, maybe we will only send 10,000 or whatever.
    Troop numbers have to come based on a very specific and 
careful full-up staff, troop-to-task analysis by our 
professional military about what is required to achieve a 
particular set of objectives in a particular set of 
circumstances. General McChrystal has done that. We don't have 
to necessarily accept it, but we can't beat it simply by 
saying, ``Well, I don't like 40. How about 20?''
    Somebody else would have to go through a very detailed, 
troop-to-task analysis for a different set of objectives within 
an agreed-upon framework of what the circumstances are and tell 
you what the number would be for a different set of objectives. 
But if you try to do this as a rheostat with I don't like 40, I 
want 20, now tell me what I can do with that, you put our 
troops in a very high probability of being given a mission that 
can't succeed.
    Mr. Smith. I think that is an excellent point to end on. I 
appreciate your coming and testifying. It is very, very helpful 
for me and the members of the committee. We will keep this 
dialogue up as the decision is going forward.
    I will close with, re-emphasizing what Dr. Kagan said, 
whatever we do, it has to be a clear strategy and a clear plan 
so that the troops and the people that we ask to go and 
implement it know what they are doing. And that is the minimum 
that we can expect, no matter what we decide.
    Thank you very much. We are adjourned.
    [Whereupon, at 11:52 a.m., the subcommittee was adjourned.]

=======================================================================

                            A P P E N D I X

                            October 22, 2009

=======================================================================

              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                            October 22, 2009

=======================================================================
      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                                  <all>

</pre></body></html>
